Nos. 19-1038, 19-1040, 19-1053

In the Supreme Court of the United States
DEPARTMENT OF HEALTH AND HUMAN SERVICES, et al.,
Petitioners,
v.
STATE OF CALIFORNIA, et al.,
Respondents.
ON PETITIONS FOR WRITS OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

COMBINED BRIEF IN OPPOSITION
XAVIER BECERRA
Attorney General of California
MICHAEL J. MONGAN
Solicitor General
AIMEE FEINBERG*
Deputy Solicitor General
KATHLEEN BOERGERS
Supervising Deputy
Attorney General

KARLI EISENBERG
Deputy Attorney General
KRISTIN A. LISKA
Associate Deputy
Solicitor General
STATE OF CALIFORNIA
DEPARTMENT OF JUSTICE
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
*Counsel of Record

March 20, 2020
(Additional captions on inside cover and
counsel on signature pages)

MARCH FOR LIFE EDUCATION AND DEFENSE FUND,
Petitioner,
v.
STATE OF CALIFORNIA, et al.,
Respondents.
THE LITTLE SISTERS OF THE POOR JEANNE JUGAN RESIDENCE,
Petitioner,
v.
STATE OF CALIFORNIA, et al.,
Respondents.

i
QUESTIONS PRESENTED
1. Whether the federal government acted outside
its authority when it issued rules broadly exempting
employers with religious or moral objections from the
Affordable Care Act’s mandate to provide contraceptive coverage for women.
2. Whether the respondent States have Article III
standing to challenge the agencies’ religious and
moral exemption rules based on record evidence
demonstrating that the rules will cause women to lose
coverage for contraceptive services and turn to statesupported programs to fill the gap.

ii
TABLE OF CONTENTS
Page
Questions Presented ..................................................... i
Introduction ................................................................. 1
Statement .................................................................... 2
Argument ................................................................... 15
Conclusion.................................................................. 22

iii
TABLE OF AUTHORITIES
Page
CASES
Bloate v. United States
559 U.S. 196 (2010) .............................................. 20
Clapper v. Amnesty Int’l USA
568 U.S. 398 (2013) .............................................. 18
Dep’t of Commerce v. New York
139 S. Ct. 2551 (2019) .............................. 11, 12, 17
Gladstone Realtors v. Village of Bellwood
441 U.S. 91 (1979) .................................................. 8
Little Sisters of the Poor Jeanne Jugan
Residence v. California
139 S. Ct. 2716 (2019) ............................................ 9
Maryland v. Louisiana
451 U.S. 725 (1981) .............................................. 18
Pennsylvania v. New Jersey
426 U.S. 660 (1976) ........................................ 17, 18
Pennsylvania v. President of the
United States
930 F.3d 543 (3d Cir. 2019).................................. 19
South Dakota v. Dole
483 U.S. 203 (1987) ................................................ 8
Spokeo, Inc. v. Robins
136 S. Ct. 1540 (2016) .......................................... 16

iv
TABLE OF AUTHORITIES
(continued)

Page

Wheaton College v. Burwell
573 U.S. 958 (2014) ................................................ 4
Zubik v. Burwell
136 S. Ct. 1557 (2016) ............................................ 4
STATUTES
26 U.S.C. § 9833 .................................................... 3, 19
29 U.S.C. § 1191c ................................................... 3, 19
42 U.S.C. § 300gg-13(a)(4)......................... 3, 12, 19, 21
42 U.S.C. § 300gg-92 ............................................. 2, 19
42 U.S.C. § 2000bb-1 ............................................. 4, 20
OTHER AUTHORITIES
76 Fed. Reg. 46,621 (Aug. 3, 2011).............................. 3
77 Fed. Reg. 8725 (Feb. 15, 2012) ........................... 2, 3
78 Fed. Reg. 39,870 (July 2, 2013) .......................... 3, 4
79 Fed. Reg. 51,092 (Aug. 27, 2014)............................ 4
80 Fed. Reg. 41,318 (July 14, 2015) .......................... 20
81 Fed. Reg. 47,741 (July 22, 2016) ............................ 5
82 Fed. Reg. 47,792 (Oct. 13, 2017) .................... 5, 6, 8

v
TABLE OF AUTHORITIES
(continued)

Page

82 Fed. Reg. 47,838 (Oct. 13, 2017) ............................ 6
83 Fed. Reg. 57,536 (Nov. 15, 2018)................ 9, 10, 16
83 Fed. Reg. 57,592 (Nov. 15, 2018)................ 9, 10, 16
Sup. Ct. R. 12.6 .......................................................... 10
U.S. Dep’t of Labor, Employee Benefits
Security Administration, FAQs About
Affordable Care Act Implementation
Part 36 (Jan. 9, 2017) ............................................. 5

1
INTRODUCTION
The Affordable Care Act requires healthcare plans
to cover cost-free preventive care services, including
contraceptive services for women. In 2017 and 2018,
the United States Departments of Health and Human
Services, Labor, and the Treasury issued interim and
then final rules broadly exempting employers with religious or moral objections from the statutory mandate
to provide contraceptive coverage. The district court
and the court of appeals held that the agencies likely
acted outside of their authority in promulgating these
sweeping new exemptions and enjoined the final rules
within the respondent States.
That conclusion is correct; but under the circumstances present here, it would be appropriate for the
Court to hold the three petitions filed by petitioners
the United States Department of Health and Human
Services and other federal agencies, Little Sisters of
the Poor Jeanne Jugan Residence, and March for Life
Education and Defense Fund. On January 17, 2020,
this Court granted certiorari in Trump v. Pennsylvania, No. 19-454, and Little Sisters of the Poor Saints
Peter and Paul Home v. Pennsylvania, No. 19-431.
Those cases involve challenges to the same religious
and moral exemption rules. Like the petitions here,
they present the question whether the agencies had
authority to broadly exempt employers from the ACA’s
contraceptive-coverage mandate.
Petitioner March for Life, but not the other two petitioners, also asks the Court to grant certiorari to consider the respondent States’ Article III standing. That
request should be denied. March for Life does not assert that the decision below conflicts with decisions of
other circuits. And the court of appeals properly ap-

2
plied this Court’s precedents in concluding that the respondent States have standing to pursue their claims
in light of the substantial and concrete fiscal harms
that will result from the final rules.
STATEMENT
1. Congress adopted the Patient Protection and Affordable Care Act in 2010. In a provision known as
the Women’s Health Amendment, Congress required
healthcare plans to cover, at no cost to the patient,
“such additional preventive care and screenings” for
women “as provided for in comprehensive guidelines
supported by the Health Resources and Services Administration.”
42 U.S.C. § 300gg-13(a)(4); Pet.
1
App. 4a.
In 2011, HRSA issued guidelines requiring coverage of all FDA-approved “contraceptive methods, sterilization procedures, and patient education and counseling” for women. See Group Health Plans and
Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and Affordable Care Act, 77 Fed. Reg. 8725, 8725-8726
(Feb. 15, 2012). HRSA based those guidelines on recommendations of the Institute of Medicine. Id. at
8726. The guidelines were subsequently updated in
2016 and continue to call for comprehensive coverage
of contraceptive services. Pet. App. 158a n.3. The
United States Departments of Health and Human
This brief responds to the petitions filed by the federal defendants (No. 19-1038), intervenor March for Life Education and Defense Fund (No. 19-1040), and intervenor Little Sisters of the
Poor Jeanne Jugan Residence (No. 19-1053). Citations to the petition and appendix filed by the federal government are to “Pet.”
and “Pet. App.,” respectively. Citations to the petition filed by
March for Life are to “March for Life Pet.” Citations to the petition filed by Little Sisters are to “Little Sisters Pet.”

1

3
Services, Labor, and the Treasury—which jointly administer the Affordable Care Act, see 42 U.S.C. §
300gg-92; 29 U.S.C. § 1191c; 26 U.S.C. § 9833—promulgated regulations consistent with these guidelines.
See 77 Fed. Reg. at 8725-8726. The agencies explained
that the requirement to provide coverage of contraceptives implements the ACA’s objective of meeting the
“unique health care needs and burdens” of women. Id.
at 8727.
The agencies also separately adopted regulations
to accommodate certain nonprofit religious employers
with objections to covering contraceptives. First, the
agencies adopted a limited exemption from the contraception-coverage requirement for houses of worship,
using a definition consistent with a similar longstanding exemption in the Internal Revenue Code. See
Group Health Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the
Patient Protection and Affordable Care Act, 76 Fed.
Reg. 46,621, 46,623 (Aug. 3, 2011). In a subsequent
rulemaking and in response to public feedback, the
agencies adopted an accommodation for a defined category of nonprofit religiously-affiliated employers that
would allow them to opt out of contracting, arranging,
paying, or referring for contraceptive services. Coverage of Certain Preventive Services Under the Affordable Care Act, 78 Fed. Reg. 39,870, 39,874-39,882 (July
2, 2013); see also 77 Fed. Reg. at 8726-8727.
Under the original accommodation, objecting employers submitted a self-certification form to their
health insurance issuer or third-party plan administrator attesting to their eligibility for the accommodation. 78 Fed. Reg. at 39,875-39,876. Upon receiving
the form, the insurer or administrator would “assume

4
sole responsibility” for providing the required contraceptive services without cost-sharing, notify covered
employees of their employer’s use of the accommodation, and segregate coverage of contraceptives so that
it was completely separate from the rest of the employer-sponsored health plan. Id. In response to objections from those eligible for the accommodation and
this Court’s order in Wheaton College v. Burwell, 573
U.S. 958 (2014), the accommodation process was
amended in 2014 to allow eligible employers to instead
directly notify (without using any specific form) the
Department of Health and Human Services, which
would then notify the objecting employer’s insurer or
plan administrator in the employer’s place. See Coverage of Certain Preventive Services Under the Affordable Care Act, 79 Fed. Reg. 51,092, 51,094-51,095
(Aug. 27, 2014).
Numerous lawsuits were filed challenging the requirement to cover cost-free contraceptives and the
agencies’ approach to accommodating religious objections. See Pet. App. 162a-163a. In Zubik v. Burwell,
136 S. Ct. 1557 (2016) (per curiam), this Court considered certain nonprofit employers’ claims that the act
of opting out through the accommodation process violated the Religious Freedom Restoration Act, 42
U.S.C. § 2000bb-1. Zubik, 136 S. Ct. at 1561. The
Court did not address the merits of the challengers’
claims but remanded the cases to allow the parties to
seek an alternative accommodation that would meet
the needs of all parties, including “ensuring that
women covered by [objectors’] health plans ‘receive full
and equal health coverage, including contraceptive
coverage.’” Id. at 1560.

5
Consistent with this Court’s remand, the agencies
issued a request for information and solicited comments concerning whether and how the regulations
could be changed to resolve objectors’ concerns while
still ensuring their employees received full and equal
health coverage. See Coverage for Contraceptive Services, 81 Fed. Reg. 47,741, 47,743-47,744 (July 22,
2016). Following the comment period, the agencies decided to maintain the existing accommodation, reiterated their conclusion that it was consistent with
RFRA, and explained that “no feasible approach” had
been identified by comments from either side that
would “resolve the concerns of religious objectors,
while still ensuring that the affected women receive
full and equal health coverage, including contraceptive coverage.” U.S. Dep’t of Labor, Employee Benefits
Security Administration, FAQs About Affordable Care
Act Implementation Part 36, at 4 (Jan. 9, 2017).2
2. a. On October 6, 2017, the agencies changed
course and issued two interim final rules significantly
expanding the number of employers eligible for the exemption from the requirement to provide coverage for
contraceptive services for their employees and their
dependents. One interim final rule extended the categorical religious exemption to “any kind of non-governmental employer” with a religious objection to
contraceptive coverage. Religious Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed. Reg.
47,792, 47,809 (Oct. 13, 2017). A separate interim final rule created an entirely new exemption for certain
Available at https://www.dol.gov/sites/dolgov/files/EBSA/aboutebsa/our-activities/resource-center/faqs/aca-part-36.pdf)
(last
visited March 19, 2020).

2

6
employers with a moral objection to covering contraceptives. Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed. Reg. 47,838, 47,848-47,849
(Oct. 13, 2017). The interim final rules also made the
accommodation procedure voluntary for both religious
and moral objectors. See id. at 47,806, 47,854. Both
were issued without prior notice or an opportunity for
public comment, and both took immediate effect. See
id. at 47,813-47,815, 47,854-47,856.
b. Respondents the States of California, Delaware,
Maryland, and New York and the Commonwealth of
Virginia filed suit challenging the interim religious
and moral exemption rules and moved for a preliminary injunction. Pet. App. 8a. The States alleged that
the interim final rules were invalid under the Administrative Procedure Act because they were improperly
issued without notice and comment, were arbitrary
and capricious, were contrary to the Affordable Care
Act, were issued without statutory authority, and violated the First and Fifth Amendments. Id.
Little Sisters moved to intervene to defend the
agencies’ expanded religious exemption, and March
for Life moved to intervene to defend the new moral
exemption. See Little Sisters Pet. 5; March for Life
Pet. 18. The States opposed both motions, noting in
particular that March for Life had already obtained a
permanent injunction in a separate suit that prevented the federal government from applying the contraceptive-coverage requirement to it. See D.Ct.
Dkt. 107 at 3-4.
The district court granted the States’ motion for a
preliminary injunction and enjoined enforcement of
the interim moral and religious exemption rules nationwide. Pet. App. 194a-195a. It held that the States

7
had standing to bring their procedural challenge because they had demonstrated that they would “incur
economic obligations” because of the interim final
rules. Id. at 173a. The interim final rules would lead
to women losing coverage for contraceptives, which in
turn would lead to increased costs to the States from
“cover[ing] contraceptive services necessary to fill in
the gaps” or from “expenses associated with unintended pregnancies.” Id. On the merits, the court concluded that, “at a minimum,” the States were likely to
succeed on their claim that the agencies violated the
APA by issuing the interim final rules without prior
notice and comment and that the other requirements
for injunctive relief were met. Id. at 178a. After issuing the injunction, the district court granted Little Sisters’ and March for Life’s motions to intervene as
permissive intervenors. Id. at 8a.
c. The court of appeals affirmed in part and reversed in part the district court’s issuance of preliminary relief. Pet. App. 105a-153a. The court of appeals
first agreed with the district court that the States had
standing to bring their claims. Id. at 118a-125a. It
explained that the States had demonstrated that the
interim religious and moral exemption rules would
“first lead to women losing employer-sponsored contraceptive coverage, which [would] then result in economic harm to the states” when women turned to
state-funded programs to provide needed services. Id.
at 118a.
The court reasoned that this conclusion followed
from the federal government’s own regulatory impact
analysis. Pet. App. 119a-120a. That analysis “estimate[d] that between 31,700 and 120,000 women nationwide [would] lose some coverage” under the
interim final rules, id. at 119a; identified the “names

8
of specific employers . . . likely to use the expanded exemptions,” including those doing business in the plaintiff States, id. at 119a-120a; and forecast “the direct
cost of filling the coverage loss as $18.5 or $63.8 million per year,” id. at 120a. It also specifically recognized that “state and local programs ‘provide free or
subsidized contraceptives for low-income women’” and
concluded that this “‘existing intergovernmental
structure for obtaining contraceptives significantly diminishes’ the impact of” the new categorical exemptions. Id. (quoting 82 Fed. Reg. at 47,803). The court
explained that the regulatory analysis “itself thus assumed that state and local governments will bear additional economic costs” as a result of the new rules.
Id.; see also id. (discussing States’ declarations further
demonstrating that women losing employer-provided
coverage will turn to state-supported programs for
care).
The court further concluded that the States’ injuries were traceable to the challenged interim final
rules. Pet. App. 122a. It rejected the argument, advanced for the first time by the dissent, that the
States’ injuries were “self-inflicted” by the States’ own
voluntary decisions to fund programs providing contraceptive care to low-income women. Id. at 122a123a. “Courts regularly entertain actions brought by
states and municipalities that face economic injury,”
as the States here did, “even though those governmental entities theoretically could avoid the injury by enacting new legislation.” Id. at 123a (citing South
Dakota v. Dole, 483 U.S. 203 (1987), and Gladstone
Realtors v. Village of Bellwood, 441 U.S. 91 (1979)).
On the merits, the court agreed that the States
were likely to succeed on their claim that the interim
final rules were improperly issued without notice and

9
comment and that injunctive relief was proper, Pet.
App. 125a-140a, but limited the scope of the injunction
to the five plaintiff States, id. at 141a-146a.
Judge Kleinfeld dissented. Pet. App. 147a-153a.
He would have concluded that the States’ injuries
were self-imposed and could be avoided by declining to
fund state programs providing contraceptive care for
low-income women. Id. at 153a.
d. This Court denied Little Sisters’ petition for a
writ of certiorari. Little Sisters of the Poor Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019)
(No. 18-1192) (mem.).
3. a. In November 2018, the agencies issued two
new final rules—a final religious exemption rule and
a final moral exemption rule—that were to supersede
the interim final rules and take effect on January 14,
2019. See Religious Exemptions and Accommodations
for Coverage of Certain Preventive Services Under the
Affordable Care Act, 83 Fed. Reg. 57,536 (Nov. 15,
2018); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,592 (Nov. 15, 2018).
The final rules are “materially identical” to the interim final rules, Pet. App. 9a, and continue to provide
broad exemptions from the ACA’s contraception-coverage requirement for any non-governmental religious
objector and for nearly any non-governmental moral
objector, while maintaining the now-optional accommodation process, 83 Fed. Reg. at 57,537-57,538,
57,593.
There were, however, three relevant changes to the
agencies’ analysis of the impact of the rules. First, the
agencies increased the estimated number of women
who would lose coverage by several thousand, from

10
120,000 to 126,400. Pet. App. 59a (citing 83 Fed. Reg.
at 57,551). Second, the agencies increased the estimated cost of the rules from $63.8 million to $67.3 million a year. See id. (citing 83 Fed. Reg. at 57,581).
Third, the rules placed “increased emphasis on the
availability of contraceptives at Title X family-planning clinics as an alternative to contraceptives provided by women’s health insurance” and as a means to
fill the gap in coverage created by the rules. Id. (citing
83 Fed. Reg. at 57,551, 57,608).
b. Respondents here—the original five plaintiff
States joined by the States of Connecticut, Hawaii, Illinois, Minnesota, North Carolina, Rhode Island, Vermont, and Washington and the District of Columbia—
amended their complaint to challenge the final religious and moral exemption rules and moved for a preliminary injunction. Pet. App. 9a.3
The district court enjoined enforcement of the final
rules within the plaintiff States. Pet. App. 104a. It
first held that the States had established standing in
light of the “voluminous and detailed evidence documenting how their female residents are predicted to
lose access to contraceptive coverage because of the Final Rules—and how those women likely will turn to
state programs to obtain no-cost contraceptives, at significant cost to the States.” Id. at 65a. The court further concluded that the States had “shown that the
Final Rules are likely to result in a decrease in the use
of effective contraception,” since “the most effective
The State of Oregon is also a plaintiff in the district court but is
not a respondent in these proceedings. See Sup. Ct. R. 12.6. Oregon intervened as a plaintiff and obtained a separate preliminary injunction after the district court issued the preliminary
injunction at issue here. See D.Ct. Dkts. 210, 274, 297, 387.

3

11
contraceptive methods are also among the most expensive,” and that in turn will “lead[] to unintended pregnancies” and “impose significant costs on the States.”
Id. at 66a.
On the merits, the district court held that the
States were likely to prevail on, or at least had raised
serious questions concerning, their claims that the final rules are inconsistent with the ACA, Pet. App. 71a74a; are not required or authorized by the Religious
Freedom Restoration Act, id. at 74a-92a; and are arbitrary and capricious due to the agencies’ failure to provide a reasoned explanation for disregarding facts
supporting their prior policy, particularly in light of
the “serious reliance interests of women who would
lose coverage to which they are statutorily entitled,”
id. at 94a. The court did not address the States’ additional claim that the final rules were procedurally invalid because the agencies failed to properly follow
notice and comment requirements in issuing the
rules.4
c. All three petitioners appealed, and the court of
appeals again affirmed. It first held that the States
had standing to bring their challenges to the final religious and moral exemption rules. Pet. App. 10a-11a.
The court explained that no new factual or legal developments supported reconsideration of its prior ruling.
Id. To the contrary, intervening authority from this
Court, Department of Commerce v. New York, 139 S.
Ct. 2551 (2019), confirmed its prior conclusion. See
March for Life is incorrect in asserting (at 26) that the States
did not challenge the final rules as procedurally invalid under the
APA. Although the district court declined to reach that claim in
light of its other holdings, the States pleaded such a claim and
moved for a preliminary injunction on that ground. See, e.g.,
D.Ct. Dkt. 174 at 15-16.

4

12
Pet. App. 11a. In Department of Commerce, this Court
held that the plaintiff States had standing to challenge the federal government’s decision to add a citizenship question to the census, “even though their
claims of harm depended on unlawful conduct of third
parties,” because their injuries “‘relie[d] on the predictable effect of Government action on the decisions
of third parties.’” Id. (quoting Dep’t of Commerce, 139
S. Ct. at 2566) (ellipses omitted). Here, the States’
“theory of causation depends on wholly lawful conduct
and on the federal government’s own prediction about
the decisions of third parties.” Id. (emphasis in original).
Turning to the merits, the court held that the agencies likely lacked statutory authority to issue the final
rules. Pet. App. 17a-30a. The court first concluded
that the Affordable Care Act did not authorize the
agencies to promulgate either the religious or moral
exemption. Id. at 17a-22a. Examining the “plain language” of the statute, the court explained that Congress used the word “‘shall’” when prescribing the
obligations of insurers to provide cost-free coverage for
preventive services for women. Id. at 18a (quoting 42
U.S.C. § 300gg-13(a)(4)). That means that “group
health plans and insurance issuers must cover preventative care without cost sharing.” Id. And while the
statute grants HRSA the limited authority to determine the types of preventive care to be covered, “nothing in the statute permits the agencies to determine
exemptions from the requirement” to provide such coverage. Id. at 18a-19a; see also id. at 19a (ACA delegates “the discretion to determine which types of
preventative care are covered,” not “the discretion to
exempt who must meet the obligation”) (emphasis in
original).

13
The court next concluded that RFRA neither required nor authorized the moral and religious exemption rules. Pet. App. 22a-30a. The court explained
that “RFRA plainly does not authorize the moral exemption” rule because RFRA “pertains only to the exercise of religion; it does not concern moral convictions.” Id. at 22a n.2.
The court further determined that RFRA did not
authorize or require the religious exemption rule. Pet.
App. 22a-30a. The court explained that, even assuming that RFRA delegated authority to the agencies to
issue blanket rules to address perceived RFRA violations, the accommodation process established before
the rule’s issuance does not substantially burden the
exercise of religion. Id. at 25a. The court observed
that under the accommodation process, a religious objector need only notify its insurance issuer, its thirdparty administrator, or the U.S. Department of Health
and Human Services of its eligibility for the accommodation and intent to opt out of providing contraceptive
services. Id. at 28a. The objector is then “relieved of
any role whatsoever in providing objectionable care.”
Id. “[A]ll actions taken to pay for or provide the [objector’s] employees with contraceptive care [are] carried out by a third party;” the objector has no
“obligation to contract, arrange, pay, or refer for access
to contraception.” Id. Rejecting the argument that religious objectors “are forced to be complicit in the provision of contraceptive care,” the court held that an
“objecting organization’s only act—and the only act required by the government—is opting out by form or
notice.” Id. at 29a. The accommodation thus does not

14
substantially burden any employer’s religious exercise. Id. at 30a.5
Judge Kleinfeld dissented. Pet. App. 33a-39a. He
would have held that a nationwide injunction issued
by a federal court in Pennsylvania after the injunction
ordered here mooted petitioners’ appeals. Id. He also
noted his disagreement with the majority on standing
and on the merits. Id. at 38a.
4. On January 17, 2020, this Court granted two
petitions for certiorari arising from a parallel challenge to the interim and final rules brought by the
Commonwealth of Pennsylvania and the State of New
Jersey: Trump v. Pennsylvania, No. 19-454, and Little
Sisters of the Poor Saints Peter and Paul Home v.
Pennsylvania, No. 19-431. In Trump, the questions
presented are: (1) whether the agencies had authority
to promulgate the final rules; (2) whether the agencies’
decision to forgo notice and comment when issuing the
interim final rules renders the final rules invalid under the APA; and (3) whether it was appropriate to enter a nationwide injunction to remedy the harm
caused by the rules. Little Sisters presents the additional question whether a litigant has standing to appeal a decision invalidating an administrative rule
when an injunction issued by another court protects
the litigant from the harm alleged.

The court declined to reach the district court’s further conclusion that the final rules were likely arbitrary and capricious as a
result of the agencies’ failure to adequately explain why they disregarded the facts underlying their pre-2017 rules.
Pet.
App. 30a-31a.

5

15
ARGUMENT
1. The federal petitioners and Little Sisters ask
that the Court hold their petitions pending the resolution of Trump v. Pennsylvania and Little Sisters of the
Poor v. Pennsylvania (hereafter Pennsylvania).
Pet. 14-15; Little Sisters Pet. 1, 11-12. The arguments
and the record in this case differ in certain respects
from those in Pennsylvania; and the decision below
correctly applied this Court’s precedents in holding
that the final religious and moral exemption rules are
likely invalid, see infra at 19-21. Nevertheless, it
would be appropriate to hold all three petitions until
the Court decides Pennsylvania. As the federal petitioners note, both this case and Pennsylvania involve
challenges to the same agency rules and present the
question whether the agencies had authority to
broadly exempt employers from the ACA’s contraceptive-coverage requirement. Pet. 14-15; see also Little
Sisters Pet. 11-12. In addition, whether intervenors
Little Sisters and March for Life may press their appeals in this case is likely to be affected by the Court’s
resolution of Little Sisters’ appellate standing in
Pennsylvania, since both intervenors have obtained
permanent injunctions providing them with the relief
they seek. See Little Sisters Pet. 8; March for Life
Pet. 16-17, 35. Respondents thus agree that these petitions should be held pending the Court’s decision in
Pennsylvania.
2. Petitioner March for Life asks the Court either
to hold its petition until Pennsylvania is decided or to
grant certiorari now, including to consider the question whether the State respondents have Article III
standing to challenge the final rules. March for Life
Pet. i, 34-36. March for Life does not allege any conflict in the lower courts regarding the States’ standing;

16
and its disagreement with the court of appeals’ application of this Court’s settled precedent to the specific
facts present here does not warrant review.
To demonstrate standing, a plaintiff must show an
injury in fact that is fairly traceable to the challenged
conduct and that is likely to be redressed by a favorable decision. Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016). Here, the States satisfied this standard
by pointing to the agencies’ own regulatory analysis,
which estimated that the final rules would cause up to
126,400 women to lose coverage for contraceptive services, that the loss in coverage would cost millions of
dollars, and that Title X family planning clinics would
fill the void. See 83 Fed. Reg. at 57,551, 57,575,
57,581, 57,605; Pet. App. 65a (“any increase in enrollment [in Title X programs] will likely increase costs to
the state”).
Beyond the federal agencies’ own analysis, the
States submitted “voluminous and detailed evidence”
confirming that the final rules will cause women to
lose coverage and that the States will incur costs either from filling that gap or from unintended pregnancies. Pet. App. 65a. For example, the director of
California’s Medicaid program explained that the final
rules would lead to more women seeking contraceptives at state-funded providers, increasing the costs to
the State. D.Ct. Dkt. 174-4. A New York state official
identified employers likely to use the expanded exemption and estimated the number of employees who
would be impacted by that decision. D.Ct. Dkt. 174-

17
36.6 This record evidence makes clear that the final
rules will cause the States to suffer concrete harms.
March for Life’s contrary arguments misunderstand Article III standards. The States need not, as
March for Life contends (at 26, 30), identify a specific
woman who will lose coverage or a specific employer
that will choose to use the expanded exemption. Rather, the States need only show a “substantial risk
that the harm will occur.” Dep’t of Commerce, 139 S.
Ct. at 2565 (internal quotation marks omitted). There
is likewise no requirement that a plaintiff have been
“accord[ed]” a legal “right[] or dut[y]” in order to challenge a federal regulation. March for Life Pet. 24. To
demonstrate standing, a plaintiff need only establish
a substantial risk that the challenged agency action
will harm it, as the States have done here. See, e.g.,
Dep’t of Commerce, 139 S. Ct. at 2565-2566.
March for Life also errs in contending that the
States’ injuries are “self-inflicted.” March for Life
Pet. 25. The States’ programs providing healthcare
services to low-income women are longstanding and
not tethered to decisions by the federal government regarding employers’ coverage obligations. This case is
therefore not like Pennsylvania v. New Jersey, 426

See also D.Ct. Dkt. 174-5 (declaration of Randie C. Chance) (estimating number of affected women and number of employers eligible for the expanded exemption in each State); D.Ct. Dkt. 1747 (declaration of Nicole Alexander-Scott) (rules will lead to increased costs for Rhode Island from covering contraceptive services or costs of unintended pregnancies); D.Ct. Dkts. 174-6, 1749, 174-11, 174-13, 174-14, 174-17, 174-19, 174-20, 174-21, 174-22,
174-23, 174-24, 174-25, 174-26, 174-27, 174-28, 174-29, 174-30,
174-33, 174-34, 174-35, 174-38 (additional declarations detailing
how the States will be harmed by the rules).

6

18
U.S. 660 (1976) (per curiam), in which this Court denied Pennsylvania’s request to initiate an original jurisdiction action to challenge a New Jersey law taxing
the New Jersey-derived income of nonresidents. The
claimed injuries to Pennsylvania’s fisc were “self-inflicted” because its own law expressly provided a credit
for taxes paid to other States. Id. at 663-664; see also
Maryland v. Louisiana, 451 U.S. 725, 745 n.18 (1981)
(discussing New Jersey). There is no analogous tie
here.
March for Life’s reliance (at 26, 29) on Clapper v.
Amnesty International USA, 568 U.S. 398 (2013), is
also misplaced. There, the Court reasoned that costs
incurred by plaintiffs to avoid government surveillance were self-inflicted, and thus insufficient to establish standing, because it was entirely speculative
whether plaintiffs would ever be subject to surveillance themselves. Id. at 416. Here, it is far from speculative that women in the respondent States will lose
employer-sponsored coverage and will turn to statesupported programs to meet their healthcare needs.
Furthermore, even if the States did not spend public
funds to provide contraceptive care, the final rules will
cause the States to incur costs addressing unintended
pregnancies resulting from the reduced availability of
contraceptives. Pet. App. 66a-68a. In no sense can
that harm be regarded as “self-inflicted.”
The Court should decline to take up March for
Life’s petition for the additional reason that this
Court’s resolution of Little Sisters’ appellate standing
in Pennsylvania is likely to affect whether March for
Life can press this appeal. Like Little Sisters in Pennsylvania, March for Life has already obtained a separate permanent injunction in a different case
providing it with the relief it seeks. Compare March

19
for Life Pet. 16-17, with Pennsylvania v. President of
the United States, 930 F.3d 543, 559 n.6 (3d Cir. 2019),
cert. granted, Nos. 19-431, 19-454.
3. Finally, there is no merit to the intervenor petitioners’ arguments challenging the court of appeals’
conclusion that the final religious and moral exemption rules are likely invalid. See Little Sisters Pet. 1112; March for Life Pet. 30-33. To begin with, March
for Life devotes significant attention to arguing that
the court below erred in enjoining the religious exemption rule. March for Life Pet. 30-33. But March for
Life may not challenge that conclusion because it does
not have religious-based objections to providing contraceptive coverage. See March for Life Pet. i (objections to comprehensive contraceptive coverage based
on a “nonreligious, moral conviction”); see also id. at
15 (March for Life is a “nonreligious, charitable organization”).
In any event, the court of appeals correctly held
that both the religious and the moral exemption rules
likely exceed the agencies’ statutory authority. The
Affordable Care Act provides that health plans and issuers “shall, at a minimum provide coverage for and
shall not impose any cost sharing requirements for . . .
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines” issued by HRSA. 42 U.S.C. § 300gg13(a)(4). This language authoritatively determines
who must cover preventive services like contraceptives and delegates only the power to determine which
services should be covered. See Pet. App. 18a-19a.
March for Life is incorrect in arguing that the agencies’ general rulemaking authority supports the exemptions. See March for Life Pet. 31 (citing 42 U.S.C.
§ 300gg-92, 29 U.S.C. § 1191c, and 26 U.S.C. § 9833).

20
That reading cannot be squared with the language of
the Women’s Health Amendment, which denies the
agencies the authority to promulgate the exemptions.
See Bloate v. United States, 559 U.S. 196, 207 (2010)
(specific provision of statute controls over general).7
RFRA likewise does not authorize or compel the
agencies’ decision to broadly exempt employers with
either moral or religious objections from the ACA’s
mandate. See Pet. App. 22a-30a. RFRA furnishes no
authority to promulgate the moral exemption rule, because the statute addresses only religious beliefs, not
nonreligious moral convictions. 42 U.S.C. § 2000bb-1.
Petitioners do not appear to contend otherwise. See
Pet. App. 22a n.2; D.Ct. Dkt. 51 at 25.
RFRA also does not authorize the religious exemption rule. To begin with, nothing in RFRA delegates
to federal agencies the authority to issue blanket rules
exempting entities from statutory obligations to address claimed RFRA violations. See Pet. App. 22a-24a.
In addition, the accommodation does not substantially
burden any objector’s religious exercise. Under the accommodation, an objector is relieved of any “obligation
to contract, arrange, pay, or refer for access to contra-

March for Life’s reliance on the pre-existing exemption for
houses of worship also does not support its challenge to the decision below. See March for Life Pet. 32. The States did not challenge that exemption; and the validity of the agencies’ narrow
exception for houses of worship raises distinct legal issues not
present here. See Coverage of Certain Preventive Services Under
the Affordable Care Act, 80 Fed. Reg. 41,318, 41,325 (July 14,
2015).
7

21
ception.” Id. at 28a. The only act required of an objecting employer is to opt out.8 March for Life contends that, by opting out, an objecting employer
“authorize[s]” others to provide contraceptive care.
E.g., March for Life Pet. 10. But it is the ACA, and not
any employer’s objection, that requires contraceptive
coverage to be provided. See 42 U.S.C. § 300gg13(a)(4). Moreover, RFRA does not confer on an objecting employer a right to control whether insurers
cover contraceptive services or whether women choose
to obtain such services. Pet. App. 29a.9
Finally, there is no basis at all for March for Life’s
argument that the court of appeals erred in “h[olding]
that the final rules were likely arbitrary and capricious.” March for Life Pet. 33. The court of appeals
never addressed whether the final rules were arbitrary and capricious, because it had “already concluded that no statute likely authorized the agencies
to issue the final rules.” Pet. App. 31a. In any event,
the rules are arbitrary and capricious because the
agencies failed to provide any reasoned explanation
for disregarding the facts underlying their prior policy. See id. at 93a-94a. March for Life’s arguments to
See also D.Ct. Dkt. 385-3 (declaration of Phyllis C. Borzi) (explaining how the accommodation does not use the objector’s plan
and fully separates the objector from any coverage of contraceptive services); D.Ct. Dkt. 358-40 (declaration of JoAnn Volk) (example of notification and information provided when an employer
objects).
8

The court of appeals did not, as Little Sisters contends, “t[ake]
it upon itself to tell the Little Sisters” that the accommodation
“does not, in fact, violate their sincerely held religious beliefs.”
Little Sisters Pet. 12. The court addressed the separate, legal
question whether the accommodation imposes a substantial, as
opposed to de minimis, burden on the exercise of religion within
the meaning of RFRA. See Pet. App. 28a-29a.

9

22
the contrary provide no reason for the Court to grant
plenary review.
CONCLUSION
The petitions for writs of certiorari should be held
pending resolution of Pennsylvania.
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
MICHAEL J. MONGAN
Solicitor General
AIMEE FEINBERG
Deputy Solicitor General
KATHLEEN BOERGERS
Supervising Deputy
Attorney General
KARLI EISENBERG
Deputy Attorney General
KRISTIN A. LISKA
Associate Deputy
Solicitor General
March 20, 2020
(Additional counsel listed on the following pages)

23
WILLIAM TONG
Attorney General of Connecticut
CLARE KINDALL
Solicitor General
MAURA MURPHY OSBORNE
Assistant Attorney General
Counsel for the State of Connecticut
KATHLEEN JENNINGS
Attorney General of Delaware
CHRISTIAN DOUGLAS WRIGHT
Director of Impact Litigation
ILONA KIRSHON
Deputy State Solicitor
JESSICA M. WILLEY
Deputy Attorney General
Counsel for the State of Delaware
KARL A. RACINE
Attorney General of the District of
Columbia
LOREN L. ALIKHAN
Solicitor General
CAROLINE S. VAN ZILE
Principal Deputy Solicitor General
GRAHAM E. PHILLIPS
Assistant Attorney General
Counsel for the District of
Columbia
CLARE E. CONNORS
Attorney General of Hawaii
ERIN LAU
Deputy Attorney General
Counsel for the State of Hawaii

24
KWAME RAOUL
Attorney General of Illinois
JANE ELINOR NOTZ
Solicitor General
ELIZABETH MORRIS
Assistant Attorney General
Counsel for the State of Illinois
BRIAN E. FROSH
Attorney General of Maryland
STEVEN M. SULLIVAN
Solicitor General
KIMBERLY S. CAMMARATA
Senior Assistant Attorney General
Counsel for the State of Maryland
KEITH ELLISON
Attorney General of Minnesota
LIZ KRAMER
Solicitor General
JACOB CAMPION
Assistant Attorney General
Counsel for the State of Minnesota
LETITIA JAMES
Attorney General of New York
BARBARA D. UNDERWOOD
Solicitor General
LISA LANDAU
Bureau Chief, Health Care
Bureau
STEVEN C. WU
Deputy Solicitor General
ESTER MURDUKHAYEVA
Assistant Solicitor General
Counsel for the State of New York

25
JOSHUA H. STEIN
Attorney General of North
Carolina
SRIPRIYA NARASIMHAN
Deputy General Counsel
Counsel for the State of North
Carolina
PETER F. NERONHA
Attorney General of Rhode Island
MICHAEL W. FIELD
Assistant Attorney General
Counsel for the State of Rhode
Island
THOMAS J. DONOVAN, JR.
Attorney General of Vermont
ELEANOR SPOTTSWOOD
Assistant Attorney General
Counsel for the State of Vermont
MARK R. HERRING
Attorney General of Virginia
TOBY J. HEYTENS
Solicitor General
SAMUEL T. TOWELL
Deputy Attorney General
Counsel for the Commonwealth of
Virginia
ROBERT W. FERGUSON
Attorney General of Washington
ALAN D. COPSEY
Deputy Solicitor General
JEFFREY T. SPRUNG
Assistant Attorney General
Counsel for the State of Washington

